.
                                  September 30, 1998

                                  M. Richard Porras
                                  Chief Financial Officer, Senior Vice President

                                  Clarence E. Lewis, Jr. 

                                  Chief Operating Officer, and Executive Vice President


                                  A. Keith Strange
                                  Vice President, Purchasing and Materials

                                  Subject: Supplier Diversity and Minority Contracting
                                           (CA-MA-98-003)

                                  The Office of Inspector General (OIG) received a request from
                                  Congressman Chaka Fattah to review U.S. Postal Service (USPS)
                                  contracts with minority businesses. This is a Management Advisory
                                  Report, which highlights the results of our review and offers
                                  suggestions for improvement. Your comments have been
                                  incorporated in the report and also included as Appendix 2.

                                  Specifically, we were requested to:

                                  ♦	 Identify why USPS did not enforce its rules that require
                                     contractors to subcontract some of their work to minorities.

                                  ♦	 Determine when the decrease in minority contract awards
                                     occurred.

                                  ♦	 Identify the current status of minority business contracts.

                                  We also reviewed whether USPS’ action plan addressed supplier
                                  diversity issues contained in a recent study.

                                  During our review, we interviewed individuals involved in the
                                  purchasing and diversity operations and reviewed contract files
                                  and other relevant documentation. We used random sampling
                                  procedures to get a representative set of contracts to review1.
                                  We conducted the review from May 1998 to August 1998,
                                  using the President’s Council on Integrity and Efficiency
                                  Quality Standards for Inspections.

    1
        We sampled 65 unique contracts valued at $500,000 and up for the six-month period ending June 30, 1998.
 Supplier Diversity and Minority Contracting	                                USPS/OIG CA-MA-98-003




Results In Brief 	           USPS has identified several initiatives to improve its Supplier
                             Diversity Program. Some of the initiatives have been
                             implemented. For example, in May 1997, USPS published a
                             Supplier Diversity Operating Plan with goals for contracting
                             with minority businesses. Despite these initiatives, however,
                             we noted the following:

                             ♦	 USPS did not enforce its requirement that contractors
                                submit subcontracting plans that encourage and include
                                minority subcontracts. Contracting officers used their
                                discretion in deciding when to comply with the
                                requirement.
                             ♦	 Minority contracts have declined2 annually since Fiscal Year (FY)
                                1994.
                             ♦	 USPS is not meeting its FY 1998 Supplier Diversity Operating
                                Plan goals for minority contract awards.
                             ♦	 Only nine of 15 supplier diversity recommendations from a recent
                                study were addressed in USPS' action plan to improve supplier
                                diversity.

Background	                  USPS' program to attract and award procurements to minority
                             businesses is referred to as Supplier Diversity. In November 1996, the
                             Board of Governors (BOG) contracted for a special study with
                             Aguirre International to evaluate and assess the effectiveness of the
                             USPS Diversity Development Program. The study was completed in
                             October 1997 and offered 15 recommendations designed to improve
                             supplier diversity. In January 1998, the BOG directed USPS
                             management to review the study results and present an action plan. In
                             response, the Deputy Postmaster General chartered a cross-functional
                             Diversity Advisory Team to address the study results. The Deputy
                             Postmaster General briefed the BOG with an action plan report
                             (entitled “Diversity Improvement Opportunities”) in April 1998. The
                             plan included 23 proposed actions, eight of which were specific to
                             supplier diversity. The BOG directed that the proposed actions be
                             tracked and monitored by an oversight committee.




 2
   Minority contracts declined in FY 1990, recovered marginally in FY 1992, declined and recovered in FY 1994 and
 then declined annually through FY 1997, as is indicated by the shading in Table 1 on page 5.


                                                        2
                                            Restricted Information
 Supplier Diversity and Minority Contracting	                         USPS/OIG CA-MA-98-003




Observations

Compliance with              We reviewed a sample of 65 Purchasing and Materials (PM) contracts.
Subcontracting               The review disclosed that USPS is not following its policy to obtain
                             subcontracting plans that encourage and include minority businesses
Policies
                             on all contracts valued at $1 million or more. This occurred because
                             contracting officials did not enforce the requirement or monitor
                             contracts for compliance. Not adhering to its policy directly
                             undermines achievement of USPS minority contracting goals.
                             Our sample of 65 contracts disclosed:

                             ♦	 Eighteen contracts were subject to the subcontracting plan
                                requirement. Six had documented subcontracting plans in the
                                contract file. Twelve did not.
                             ♦ Three of the six with subcontracting plans included proposed
                                awards to minority businesses.
                             ♦ One of the twelve contracts had no documented plan although a
                                subcontract was awarded to a minority business.
                             ♦	 The 18 contracts were valued at $265 million of which minority
                                subcontracts were proposed for $2.3 million - less than one
                                percent.
                             ♦	 One of 47 contracts not subject to the subcontracting plan
                                requirement had a proposed award to a minority subcontractor.

Contracting                  Contracting officials acknowledged they were aware of the
Officials                    requirement to obtain subcontracting plans. When asked why they did
                             not comply, various explanations were given:

                             ♦	 The policy is not considered a priority on automation and
                                information technology type contracts. The service provided, i.e.,
                                timeliness and quality of performance, is a higher priority.
                                According to one official, Year 2000 work should not be
                                jeopardized by the requirement that the contractor provide a
                                subcontracting plan.

                             ♦	 The subcontracting plan requirement is not applicable to individual
                                delivery orders unless their initial award is $1 million or more.

                             ♦	 On three separate contracts, "subcontracting plans had been
                                requested as early as February 1998, but had not yet been
                                submitted by the contractors," as of July 20, 1998.

                             ♦	 A contracting official acknowledged that although the clause was


                                                        3
                                            Restricted Information
 Supplier Diversity and Minority Contracting	                                    USPS/OIG CA-MA-98-003




                                   referenced in the contract he simply “forgot” to obtain the
                                   subcontracting plan.

                               ♦	 Contractors who intend to solely perform the contracted service
                                  are not required to submit a subcontracting plan.

                               Regardless of foregoing explanations, USPS policies are clear on the
                               requirement to obtain subcontracting plans for awards initially
                               estimated at $1 million or more as well as aggregate awards increased
                               to $1 million or more 3. This includes delivery order type contracts.
                               All contractors should be held accountable for complying with
                               contract clauses, including the requirement to submit plans that
                               encourage and include minority subcontracts. While USPS policy
                               grants the contracting officer latitude in determining when contractors
                               must submit their plans, excessive delays undermine the achievement
                               of USPS minority contracting goals.

Trends for Minority
 The level of minority business contracts within the USPS fluctuated
Business Contracts 
 extensively during the period FY 1989 through FY 1994. However,
                               since FY 1994 minority contracts have declined annually.
                               Participation rates during this most recent period ranged from a high
                               of 5.18 percent in FY 1994 to a low of 2.454 percent in FY 1997 (see
                               Table 15 on the next page). USPS officials attribute declines prior to
                               FY 1994 primarily to the expansion of the USPS credit card program.
                               The expansion of the credit card program removed over 90,000
                               transactions from formal contracting procedures.

                               We asked USPS officials why minority participation rates have
                               declined steadily since FY 1994. They offered the following reasons:

                               ♦	 Despite USPS’ best efforts to identify sources (minority
                                  suppliers), they do not always result in awards.

                               ♦	 There are a limited number of minority firms in areas such as air
                                  freight and automation that meet USPS buying needs.




 3
   An exception is made in the case of small business awards.
 4
   In FY 1997 the Postal Service awarded a $1.7 billion contract to a non-minority vendor. This single award skews
 statistics because it is not usual. Had this award not been included, the minority business dollars would be 3 percent
 of the total FY 1997 awards.
 5
   All percentages, minority award dollars and number of actions were provided by USPS. No independent test was
 conducted to verify these amounts.


                                                           4
                                               Restricted Information
 Supplier Diversity and Minority Contracting	                                      USPS/OIG CA-MA-98-003




                              ♦	 The Supreme Court’s Adarand decision impacted diversity
                                 contracting practices6.

                              ♦	 Opportunities to contract with minority firms are limited because
                                 USPS' average contract values increased as a result of the capital
                                 projects budget in FY 1996.

                                                     Table 1. Postal Service
                                                   Minority Business Contracts

                                          FY        Percent of          Minority        Number of
                                                    Total USPS           Award           Actions
                                                     Awards              Dollars
                                                                        (millions)
                                          89               6.15           272             8182
                                          90               5.06             210           7234
                                          91               5.08             167           6130
                                          92               6.14             145           6371
                                          93               3.93             153           4463
                                          94               5.18             241           7112
                                          95               5.11             212           5034
                                          96               3.80             266           4005
                                          97               2.45             234           3322



Current Status of 	  Minority business contract dollars and awards are not meeting USPS
                                                                      7
Minority Contracts 	 Supplier Diversity Operating Plan goals. Table 2 below provides a
                              detailed comparison between these goals and the related actual dollars
                              and number of actions for FY 1997 and FY 19988.

                                            Table 2. Status of Minority Contracting Goals
                                       Major
                                     Purchasing                   Planned                        Actual
                                       Units
                                                         Dollars         Actions        Dollars           Actions
                                   FY 97:
                                      HQ Pur               81.9              716          46.5             307
                                      PMSCS                64.4             2085          68.1            1988

 6
   The Adarand decision of 1995 dealt with preferences in federal contracting based on minority group membership. 

 Headquarters PM officials stated the Adarand decision had no impact since USPS curtailed the practice of set-asides

 prior to the decision. However, Facilities and Transportation managers indicated that their purchasing decisions 

 were impacted by the decision. 

 7
   All planned and actual figures were provided by USPS and not tested for completeness.

 8
   FY 1998 dollars and number of actions (awards) are through February 26, 1998. 



                                                           5
                                               Restricted Information
 Supplier Diversity and Minority Contracting	                                     USPS/OIG CA-MA-98-003




                                        Trans               93.6          1221           85.0           696
                                        Facilities          45.6            194          31.3            93
                                        Subtotal          285.5           4216          230.9          3084
                                        Tot Award          7174          44876          9,780        54,740
                                        % of Total          4%            9.4%            2%           5.6%

                                   FY 98:
                                      HQ Pur                92.4            717          13.3           113
                                      PMSCS                 72.6          2088           25.5           846
                                      Trans               105.6           1233           11.5           216
                                      Facilities            51.7            194            0.            28
                                      Subtotal            322.3           4222           50.3          1203
                                      Tot Award            7461          43978
                                      % of Total           4.3%           9.6%
                              We interviewed managers in each of the major USPS purchasing
                              units9 who projected they would not meet their minority contracting
                              goals in FY 1998. They cautioned us not to rely on statistical
                              performance data alone because such data does not portray "a
                              complete picture" of USPS' Supplier Diversity Program performance.
                              We agree that statistical data should not be the sole basis for
                              measuring the success of the Supplier Diversity Program. For
                              example, the statistics do not reflect USPS’ Supplier Diversity
                              Program initiatives, nor do they reflect the action plan that is currently
                              being implemented. However, the number and value of minority
                              contracts awarded, particularly when compared to total USPS
                              contracts awarded, remain the most visible indicators of the success of
                              the program to external parties. Appendix 1 to this report provides a
                              listing of Supplier Diversity Program initiatives identified by USPS.
Responsiveness of             In response to the Aguirre report, USPS prepared an action plan. Our
USPS’ Proposed                analysis disclosed that the action plan addressed only nine of 15
                              recommendations offered on supplier diversity. The remaining six
Actions to the
                              recommendations, as summarized below, were excluded from the
Aguirre                       action plan:
International Report
                              1. 	 Establish a goal to award seven percent of total contract dollars to
                                   minority suppliers.
                              2. 	 Establish a Supplier Diversity Coordinator position at each
                                   Purchasing & Material Service Center (PMSC).
                              3. 	 Waive the requirement for “ISO 9000”10 licenses from minority
                                   businesses for competitions valued at less than $1 million.
                              4. 	 Segment large contracts into pieces manageable by smaller
                                   minority and woman-owned businesses.
                              5. 	 Assign subcontract (tier two) plan enforcement to Equal

 9
   USPS purchasing activity can be separated into four distinct buying units: Headquarters Purchasing (HQ Pur), 

 PMSCs, Transportation (Trans), and Facilities (Fac). 

 10
    ISO 9000 is an external system for pre-qualifying prospective suppliers. 



                                                          6
                                              Restricted Information
 Supplier Diversity and Minority Contracting	                           USPS/OIG CA-MA-98-003




                                  Employment Opportunity (EEO) and Diversity Development
                                  offices.
                             6. 	 Consider other criteria, such as quality of offerors' processes and
                                  products, in “lowest bidder” purchasing decisions.

                             According to an official who worked on the action plan, there was no
                             intent to create a one-to-one match of the Aguirre recommendations.
                             Instead, the intent was to evaluate and respond to the Aguirre report by
                             developing a general plan with actions that the BOG could monitor.
                             The BOG afforded USPS officials latitude in addressing
                             recommendations contained in the Aguirre Report. However, the
                             action plan should have included a rationale for why the six
                             recommendations were not addressed.
Recommendations 	            While the action plan proposals regarding supplier diversity should
Included in USPS             enhance the minority contractor participation rate in the USPS, we did
                             note concerns with three of the proposed actions:
Action Plan 	
                             ♦	 One proposed action is to expand communication regarding the
                                Supplier Diversity Program. This is the sole responsibility of the
                                Vice President, Purchasing and Materials. Given the current USPS
                                organizational structure, we believe this USPS strategic initiative
                                should be a joint responsibility among the Vice Presidents for
                                Purchasing and Materials, Facilities, Operations Support, and
                                Diversity Development.

                             ♦	 Another proposed action is to expand and continue implementing
                                the current Supplier Diversity Operating Plan. Employees
                                responsible for purchasing and buying within the USPS receive
                                their authority from the Vice President, Purchasing and Materials.
                                However, some functional employees are not held accountable for
                                meeting minority contracting goals in the Supplier Diversity
                                Operating Plan. These include employees within Facilities who
                                have purchasing authority as well as employees throughout the
                                USPS who set purchasing requirements. If Supplier Diversity
                                Operating Plan goals are to be met, all purchasing and buying
                                employees as well as those who set requirements should be
                                accountable.

                             ♦	   Another proposed action mandates use of supplier diversity data to
                                  measure the success of the Supplier Diversity Program. The
                                  proposed approach requires clarification of ethnic and gender
                                  breakdown of contractors by contract. Current statistical reporting
                                  of supplier diversity information is hampered with overlap among
                                  categories such as minority, woman-owned, and small business.


                                                        7
                                            Restricted Information
 Supplier Diversity and Minority Contracting	                           USPS/OIG CA-MA-98-003




                                 The proposed approach should include a specific requirement to
                                 expand USPS purchasing systems to capture uniform
                                 socioeconomic coding, such as African-Americans, Asian-
                                 Americans, Hispanic-Americans, etc., on USPS direct and second
                                 tier contracts. Detailed data provided by the expanded
                                 socioeconomic coding would allow USPS to footnote its statistical
                                 reports for the percentage of overlap.

Suggestions                  The Vice President, Purchasing and Materials should:

                             1. 	 Ensure that all contracting officers are held accountable for
                                  adhering to USPS’ subcontracting plan requirement.

                             2. 	 Clarify Purchasing Manual regulation 3.2 to specify the period that
                                  contractors will be granted to submit subcontract plans.

                             3. 	 Hold contracting officers accountable for ensuring that
                                  subcontracting plans specifically encourage and include
                                  minority businesses.

                             The Co-chairs of the Oversight Committee, Chief Operating Officer
                             and Chief Financial Officer should:

                             1. 	 Document why six supplier diversity recommendations from the
                                  Aguirre report were not addressed in the action plan and provide
                                  an explanation to the BOG.

                             2. 	 Revise the action plan to incorporate recommendations on three
                                  proposals. Specifically:

                                 a). Make supplier diversity communication a joint responsibility
                                     among Vice Presidents, Purchasing and Materials, Facilities,
                                     Operations Support, and Diversity Development.

                                 b). Require all purchasing and buying employees, as well as those
                                     who set requirements be held accountable for implementing
                                     supplier diversity goals.

                                 c).	 Expand USPS purchasing systems to capture uniform
                                      socioeconomic coding, such as African-Americans, Asian-
                                      Americans, Hispanic-Americans, etc., on USPS direct and
                                      second tier contracts.

Management                   Management comments are at Appendix 2. Management agreed with


                                                        8
                                            Restricted Information
 Supplier Diversity and Minority Contracting                            USPS/OIG CA-MA-98-003




Comments                    all our suggestions with one exception. Although management did
                            include in its written comments, an explanation on each of the six
                            supplier diversity recommendations from the Aguirre report that were
                            not addressed in the action plan, management does not see a need to
                            provide the explanations to the BOG, as we suggested. The OIG will
                            provide a copy of this report to the BOG, including the explanations
                            contained herein.

Evaluation of
                            We believe management's comments are responsive to the issues
Management's
                            raised in this report. The corrective actions that management has
Comments                    taken or planned in response to our suggestions should add value to
                            USPS' supplier diversity program.

                            If you have any questions, please contact                , Director,
                            Contracts, or me at (703) 248-2300.




                            Sylvia L. Owens
                            Assistant Inspector General
                             for Revenue/Cost Containment

                            cc:




                                                       9
                                           Restricted Information
Supplier Diversity and Minority Contracting                        USPS/OIG CA-MA-98-003




   Major Contributors to this Report were:




                                                     10
                                          Restricted Information
Supplier Diversity and Minority Contracting                                                                                                           USPS/OIG CA-MA-98-003




                                                               ONGOING SUPPLIER DIVERSITY INITIATIVES

According to USPS purchasing officials, ongoing supplier diversity initiatives by purchasing activity include:

      FIELD PURCHASING(or PMSCs)                         HEADQUARTERS                    NATIONAL MAIL TRANSPORTATION                                  FACILITIES
                                                            PURCHASING
1.    Establishing diversity source lists in      1. Training for all buyers.           1.  One-on-one training with minority and          1.   Requesting Area/Local
      hard copy and in electronic versions for    2. Establishing supplier focus            women suppliers.                                    organizations distribute
      specialists to use.                             groups (for Service               2. Conducting supplier seminars.                        solicitations to their members
2.    Identifying diverse suppliers in source         Purchasing).                      3. Encouraging and engaging in joint                    that result in receiving proposals
      lists for competitive purchases over        3. Holding a Supplier                     ventures with various Diversity Councils            from minority suppliers either as
      $100K.                                          Conference twice a year               (Minority Supplier Development Councils,            prime or subcontractors.
3.    Sponsoring diversity sessions in various    4. Offering a Supplier Guide to           Hispanic Supplier Councils, and Local          2.   Contacting National, Area, and
      locations.                                      communicate to vendors –              Chambers of Commerce).                              Local supplier diversity
4.    Attending/participating in local                names, phone numbers and          4. Offering supplier diversity training for all         organizations to assure
      tradeshows, seminars, outreach forums,          products.                             buyers.                                             solicitations have been received.
      etc.                                        5. Having goals for each buying       5. Encouraging attendance at Trade Fairs.          3.   Requiring all contracts over
5.    Sponsoring capability briefings with            unit for quantity and dollar      6. Sponsoring and attending local and Area-             $5 million be monitored
      prospective diverse suppliers.                  amount awarded to small,              wide supplier diversity seminars.                   monthly. Contracts between
6.    On-the-spot awards to diverse suppliers         minority and women-owned          7. Sponsoring supplier training and                     $2.5 and $5 million are
      at trade shows.                                 businesses .                          presentations for minority businesses.              monitored quarterly. In the
7.    Supplier diversity training to staff.       6. Having minority and women-         8. Joint sponsoring of supplier diversity               event goals are not met, the
8.    Requiring supplier diversity goals in           owned business (MWOB)                 seminars with Area Vice Presidents and              project manager is questioned,
      performance objectives.                         goals in individual                   PMSCs.                                              and written justifications are
9.    Using the Internet as a means to identify       development plans.                9. Collecting and reviewing supplier diversity          required from the contractors.
      diverse suppliers and sharing website       7. Requiring supplier diversity as        plans of all major suppliers.                  4.   Obtaining a list of supplier
      information across organizations.               an agenda item on monthly         10. Developing our second tier program to:              diversity sources from the
10.   Requiring a session on supplier diversity       staff meetings.                       (a) assist large transportation suppliers in        contractors prior to contract
      in manager and team leader meetings.        8. Offering cash awards and               developing business relationships with              approval.
11.   Publicizing and communicating success           recognition for individuals and       MWOB subcontractors, and (b) develop a         5.   Having General Counsel review
      stories on diverse suppliers.                   unit buyers.                          data collection infrastructure for second           guidelines for minority
12.   Developing tracking system for              9. Reporting on: total awards,            tier data.                                          enterprise participation prior to
      subcontracts (or second tier) data.             subcontracting, indirect, and     11. Identifying minority potential suppliers            distribution to contracting
13.   Having supplier diversity messages in           credit cards.                         using the Internet.                                 officers.
      various PMSC newsletters.                   10. Requiring a clause in contract    12. Working with Area diversity coordinators
14.   Developing local recognition programs           to report USPS contract               to develop new minority business sources.
      for effort and successes in this arena.         dollars separately.


                                                                                                                                                              Appendix 1, page 1 of 2

                                                                              Restricted Information
Supplier Diversity and Minority Contracting                                                                                           USPS/OIG CA-MA-98-003




15. Requiring supplier diversity sourcing is     11. Having a supplier diversity     13. Publishing upcoming procurement
    included in local buying training to field       coordinator in each buying          opportunities.
    customers.                                       unit and Headquarters.          13. Requiring supplier diversity be an agenda
16. Assigning diversity coordinator                                                      item in the field managers meetings.
    responsibilities in each PMSC to assist                                          14. Benchmarking of best practices in supplier
    in the responsibilities of the program.                                              development.
17. Communicating the supplier diversity
    program to field customers.
18. Conducting more intensive debriefings
    to diverse suppliers who are not
    successful in competitive purchasing




                                                                                                                                           Appendix 1, page 2 of 2

                                                                             Restricted Information
